                                               July 19, 1999


MEMORANDUM FOR THE SECRETARY

FROM:                 Gregory H. Friedman (Signed)
                      Inspector General

SUBJECT:              INFORMATION: Report on "The Office of Defense Programs Robotics and
                      Intelligent Machines Projects"

BACKGROUND

Robotics and Intelligent Machines (RIM) are systems composed of machines, sensors, computers, and
software capable of executing various tasks with minimal human intervention. They have wide range
application for solving many operational challenges including nuclear waste cleanup and weapons
manufacturing and dismantlement. RIM accelerates cleanup and reduces the amount of exposure humans
experience from nuclear materials.

Recently, the Department achieved a major milestone in publishing a technology roadmap. The roadmap
lays out a pathway and milestones to simultaneously improve operations and accelerate RIM research and
development through the year 2020. However, the success of the roadmap is dependent on how well each
of the Department's programmatic organizations manages its portion of RIM initiatives. The Offices of
Defense Programs and Environmental Management are the organizations most involved with RIM. We
estimated that Defense Programs funded about $14 million and Environmental Management funded about
$24 million of Departmental RIM projects. It is anticipated that funding for these activities will increase
substantially in the future. The objective of this audit was to determine whether Defense Programs RIM
research and development projects were effectively managed.

RESULTS OF AUDIT

RIM projects may not have been managed in the most effective manner. The Office of Defense Programs
did not have accurate information regarding the number of projects funded, the amount of funds expended,
or locations where work was being accomplished. Furthermore, Defense Programs had not maintained
such data at the Headquarters level or established a reporting system that extracted the data from
contractors performing the work. In addition, overall responsibility for RIM activities in Defense
Programs had not been assigned. Lack of a reporting system and an integrated management approach
could result in unnecessary redundancy of projects and lessen assurance that fund usage was prioritized
and resources were used as envisioned. We therefore recommended that Defense Programs establish
enhanced management controls including a central point of contact with oversight responsibility for RIM
projects.

MANAGEMENT REACTION

Management's comments did not fully satisfy the intent of our recommendations. Defense Programs
planned to establish a mechanism to collect reliable and timely information, but did not specify what that
mechanism would be nor when it would be implemented. Defense Programs also agreed to adopt an
integrated management approach under a single point of contact at Headquarters for all of its RIM
activities should they become part of a Departmentwide national initiative. However, the latter action will
not be taken until a decision is made that RIM activities are of sufficient importance to be consolidated
                                                      -2-


will not be taken until a decision is made that RIM activities are of sufficient importance to be consolidated
into a formal program with assigned program responsibility. With Departmental operating costs for RIM
activities currently exceeding $66 million per year and expected to increase significantly, the Office of
Inspector General believes such a decision would be appropriate at this time.


Attachment

cc: Deputy Secretary
    Under Secretary
DOE/IG-0449




         AUDIT
        REPORT


                                            THE
                                OFFICE OF DEFENSE PROGRAMS
                                 ROBOTICS AND INTELLIGENT
                                     MACHINES PROJECTS




                                              JULY 1999




   U.S. DEPARTMENT OF ENERGY
  OFFICE OF INSPECTOR GENERAL
    OFFICE OF AUDIT SERVICES
The Office of Defense Programs Robotics And Intelligent
Machines Projects




TABLE OF
CONTENTS




                   Overview

                   Introduction And Objective .................................................................1

                   Conclusions And Observations ............................................................1


                   Management Of Robotics And Intelligent Machines Projects

                   Details Of Finding ..............................................................................3

                   Recommendations And Comments ......................................................7


                   Appendices

                   1. Scope And Methodology.............................................................10

                   2. Robotic Manufacturing Science And
                      Engineering Laboratory...............................................................11

                   3. Summary Of Related Office Of Inspector
                      General Reports ..........................................................................12

                   4. OIG Estimates Of Departmental RIM Funding ............................13
Overview

INTRODUCTION AND   Robotics and Intelligent Machines (RIM) are systems composed of
OBJECTIVE          machines, sensors, computers, and software capable of executing various
                   tasks with minimal human intervention. Such systems have wide range
                   application from the development of smart cars that drive themselves to
                   robotic devices that make surgery safer and quicker. RIM technology
                   can be used by the Department in nuclear waste cleanup and weapons
                   manufacturing and dismantlement. Benefits of RIM application include
                   accelerated cleanup, improved productivity, quality and cost efficiency,
                   and the reduction of human exposure to nuclear materials.

                   In 1997, the Congress urged the Department and other Federal agencies
                   to work together and establish a robotics and intelligent machines
                   industry in the nation. Congress requested each agency to develop a plan
                   that identified where fundamental research was most needed and the
                   initiatives to accomplish those needs. In response to congressional
                   guidance, the Department developed a technology roadmap, which
                   focused on mission needs and how RIM can improve capabilities both
                   now and into the future.

                   Within the Department, RIM activities cut across most program offices.
                   However, the Offices of Defense Programs and Environmental
                   Management were the Departmental organizations most involved with
                   RIM. During Fiscal Year 1998, we estimated that Defense Programs
                   expended about $14 million and Environmental Management about $24
                   million for RIM research. It is anticipated that funding for these activities
                   will increase substantially in the future. In addition, the Department has
                   built a $30 million laboratory at Sandia National Laboratories specifically
                   designed to support RIM activities.

                   The objective of this audit was to determine whether Defense Programs
                   RIM research and development projects were effectively managed.


CONCLUSIONS AND    Defense Programs RIM activities may not have been managed in the most
OBSERVATIONS       effective manner. Specifically, Defense Programs did not have accurate
                   information regarding the number of projects funded, the amount of
                   funds expended, or locations where work was being accomplished.
                   Defense Programs had not maintained such data at the Headquarters level
                   or established a reporting system that extracted the data from contractors
                   performing the work. Also, Defense Programs had not designated
                   responsibility for RIM activities to one point of contact. Lack of a
                   reporting system and an integrated management approach could result in


Page 1                                                        Introduction And Objective/
                                                           Conclusions And Observations
         the unnecessary redundancy of projects and lessen Defense Programs
         assurance that fund usage was prioritized and resources were used to
         achieve program results envisioned.

         Recently, the Department achieved a major milestone in publishing a
         technology roadmap. It lays out a pathway and milestones to
         simultaneously improve operations and accelerate RIM research and
         development through the year 2020. However, the success of the
         roadmap is dependent on how well each of the Department's
         programmatic organizations manage their portion of RIM initiatives.

         The audit identified issues that management should consider when
         preparing its yearend assurance memorandum on internal controls.



                                      ______(Signed)_________
                                      Office of Inspector General




Page 2                                           Introduction And Objective/
                                              Conclusions And Observations
Management Of Robotics And Intelligent Machines Projects

Inaccurate RIM Project   The Office of Defense Programs did not have the information needed to
Information              effectively manage its RIM research projects. Responsibilities for RIM
                         activities had been assigned to two primary Defense Programs
                         organizations--the Office of Advance Design and Production
                         Technologies (Office of Technologies) and the Office of Research and
                         Testing (Office of Research). While these offices had ultimate
                         responsibility for RIM activities, they could not provide accurate
                         information on the number of projects funded, the amount of funds
                         expended, or locations where work was being accomplished.

                                       Number And Funding Of Projects Unknown

                         Neither office responsible for RIM activities could provide accurate
                         information on the number and funding of projects carried out by
                         contractors or where work was being accomplished. For example,
                         Office of Technologies officials estimated that about $3 million provided
                         to Albuquerque had been expended on three robotic projects during
                         Fiscal Year 1998. When the Office of Inspector General could not
                         substantiate this information, the Office of Technologies revised the
                         estimate and indicated that only two projects costing about $2 million
                         had been undertaken. Albuquerque officials subsequently advised that
                         only $1.8 million had been expended on robotic efforts at the Robotics
                         Manufacturing Science and Engineering Laboratory (RMSEL). (See
                         Appendix 2.) In an effort to reconcile the differences, we contacted
                         RMSEL, a component of Sandia National Laboratories, and found that
                         the Office of Technologies had funded several RIM tasks costing about
                         $1.4 million. Due to insufficient records, the three different estimates
                         from the Office of Technologies, Albuquerque, and the RMSEL
                         contractor could not be reconciled.

                         Similarly, the Office of Research officials did not know the magnitude of
                         RIM research that it funded. They referred the Office of Inspector
                         General to the contractor at RMSEL to whom they had delegated day-
                         to-day management of all RIM activities. The contractor, however, only
                         maintained information on projects being accomplished at that site.
                         RMSEL records indicated that the Office of Research funded
                         approximately $6.1 million for Fiscal Year 1998 RIM activities.
                         However, we could not validate this information.

                         Defense Programs officials advised that funding to the Albuquerque
                         Operations Office and RMSEL for RIM research was not specifically
                         earmarked as such but included as part of larger programs. Since


Page 3                                                                       Details Of Finding
         Defense Programs management role in RIM activities was broad and
         general in nature, Headquarters officials were uncertain of the amount
         Albuquerque and the contractor subsequently dedicated to such
         research.

                              Location Of Projects Unknown

         Defense Programs officials also did not know where all RIM projects
         were being performed. Officials were of the opinion that all RIM
         research projects were being conducted at RMSEL. Contrary to this
         belief, RIM research funded by Defense Programs was being conducted
         at several other laboratories.

         In an effort to determine the total magnitude of the Department's RIM
         research, we queried all Departmental laboratories to identify if robotics
         work was being conducted. In addition to RMSEL, we found that
         Defense Programs funded about $5.8 million of RIM research at the Los
         Alamos and Lawrence Livermore National Laboratories and the
         Savannah River Technology Center. We also found that other offices
         within Defense Programs, such as the Tritium and National Ignition
         Facility Project Offices, had funded RIM projects. Defense Programs
         officials were uncertain why other laboratories were conducting RIM
         research but stated that Albuquerque had distributed RIM funds to
         laboratories other than RMSEL to assist in RIM projects.
         Consequently, we were unable to determine the exact amount of
         Departmental RIM expenditures.

                               A Departmental Benchmark

         For benchmarking purposes we obtained information from the Office of
         Environmental Management on reporting systems and other controls it
         used to analyze and control RIM costs. The Office of Science and
         Technology within Environmental Management centrally managed
         approximately $7.6 million of RIM activities from Headquarters in Fiscal
         Year 1998. This office provided the control and direction and made the
         fundamental decisions regarding RIM activities although the field sites
         carried out actual RIM projects. Further, the Office of Science and
         Technology implemented a reporting system to ensure that information
         regarding the funding, number, and locations of the projects was
         maintained and readily available for review. A technical project officer
         was also located at each site to manage RIM projects. Additionally,
         monthly meetings were held with technical officers to discuss funding


Page 4                                                        Details Of Finding
                          needs, project status, and cost performance data. These and other
                          controls enabled the Office of Science and Technology to maintain
                          accurate and timely information regarding its RIM projects and
                          eliminated the possibility of duplicative research. The Office of Science
                          and Technology also used an integrated approach to manage its RIM
                          activities. Under the approach, all aspects of RIM activities were
                          coordinated to eliminate the possibility of duplication.


Departmental              Federal and Departmental policies and procedures provide guidance on
Regulations Require       the management and use of Federal resources. Office of Management
Effective And Efficient   and Budget Circular A-123 and Departmental Order 413.1 require that
Management Of             Federal resources be managed effectively and efficiently to achieve
Resources                 intended program results. Resources are to be used consistently with
                          the agency's mission, in compliance with laws and regulations, and
                          protected from waste, fraud, and mismanagement. Further, managers
                          are to implement management controls to help ensure revenues and
                          expenditures are accounted for properly. Management controls are
                          defined as the organizational structure and the policies and procedures
                          used to ensure that resources are used consistent with the agency’s
                          mission and that reliable and timely information is obtained, maintained,
                          reported, and used for decision making.

                          The Government Performance and Results Act of 1993 reinforced the
                          importance of management systems and achievement of mission, goals,
                          and objectives. This Act requires the creation of long-range strategic
                          plans that defined organizations' missions and formed the basis for
                          performance measurement. In keeping with the requirement, the
                          Department's 1998 Strategic Plan (Plan) recommended implementing
                          reporting systems that provided useful information for analyzing and
                          controlling costs. Such reporting systems, if reliable, increase the
                          Department's responsiveness, effectiveness, and efficiency in providing
                          information needed to manage operations, including achievement of
                          goals. Accurate and timely data for RIM activities was needed to
                          measure the Department's success in achieving its goals and mission
                          defined in the technology roadmap. The Plan also stressed the need for
                          an integrated organizational approach for managing Headquarters, field,
                          and contractor operations. An integrated approach is the effective
                          collaboration of planning, conducting, and management of research and
                          development activities.




Page 5                                                                         Details Of Finding
Lack Of Management      The Offices of Technologies and Research did not have accurate
Controls And An         information on RIM research expenditures because neither office had
Integrated Management   established and implemented a reporting system specifically for RIM
Approach                projects. In addition, there was no requirement that RIM research
                        activities carried out by the two Defense Programs offices be integrated.

                        Defense Programs had not established a reporting system or required
                        periodic reporting from contractors performing RIM research activities
                        because, according to officials, RIM was considered an initiative with
                        less funding than a program category. Program category is the current
                        budgetary level at which Defense Programs becomes more active in
                        managing research and development projects. Although officials were
                        unsure of the exact amount of Defense Programs RIM expenditures,
                        they believed the amount of funds dedicated to RIM activities were
                        minimal in relation to its $4 billion budget. Therefore, RIM had not
                        been given the same level of attention as larger dollar value initiatives.

                        Further, Defense Programs lack of overall knowledge of robotic projects
                        occurred because the office did not use an integrated approach for
                        managing RIM activities. As previously stated the two Defense
                        Programs offices that funded RIM research had been decentralized to
                        the greatest extent feasible. These offices carried out the planning,
                        budgeting, and management of robotic activities independently of each
                        other. Further, each relied on other organizations such as Albuquerque
                        or the contractor at RMSEL for day-to-day management and review of
                        RIM activities. No one individual or office within Defense Programs
                        had total oversight responsibility for RIM.


Project Oversight       Without adequate information Defense Programs did not have complete
Needed Improvement      assurance that RIM projects were not being duplicated at various sites
                        or that funds were always used to achieve the intended program results.
                        While duplicative research was not found during the review,
                        observations of Departmental activities at RMSEL raised questions on
                        the appropriateness of fund usage. More specifically, Defense Programs
                        officials advised that RMSEL was funded to provide one central facility
                        for employees working on RIM projects. Headquarters, however, did
                        not have documentation to this effect and referred the Office of
                        Inspector General to the Albuquerque Operations Office. There we
                        found that RMSEL approval had been granted based on the
                        understanding that the laboratory was to meet the RIM needs of the
                        Department that industry was not currently supplying or developing.
                        However, during the audit we learned that about half of the RIM

Page 6                                                                        Details Of Finding
                  projects at the laboratory were for other Federal agencies and the private
                  sector. While we did not draw a conclusion on the overall need for the
                  facility, based on its current usage, we did question the need for a facility
                  of this magnitude when the number, funding, and locations of
                  Departmental RIM activities were not readily apparent. In our view,
                  this is an example where better coordination and communication was
                  needed to ensure that funds were appropriately justified and used.

                  In addition, more attention to robotics activities was needed to ensure
                  that the Department fulfills its role in successfully completing the
                  Department's vision and subsequent development of a national RIM
                  industry. At the time of the audit, there was no specific accounting for
                  the funding of total RIM activities conducted at eight Department-
                  owned, contractor-operated laboratories throughout the United States.
                  We estimated that RIM operating costs for these activities exceeded $66
                  million in Fiscal Year 1998. (See Appendix 4.) Further, RIM funding
                  was expected to increase significantly as research and development was
                  planned by the Department through 2020. Given the current size of
                  RIM efforts and plans for significant future increases, the Department,
                  and in particular the Office of Defense Programs, should have
                  information systems in place to better manage RIM activities and to
                  ensure stated goals are achieved.



RECOMMENDATIONS   We recommend that the Assistant Secretary for Defense Programs:

                  1. Establish management controls including policies and procedures
                     that require the accurate accountability of RIM projects.

                  2. Develop an integrated management approach for RIM projects. At a
                     minimum it should include:

                     • Establishing one central point of contact within Defense
                         Programs to have oversight responsibility for RIM projects. This
                         individual or office should be responsible for maintaining a
                         reporting system that contains reliable and timely information.

                     • Requiring all offices and field sites with RIM projects to
                         periodically report to this individual or office.

                     • Coordinating the planning, budgeting, and management of RIM


Page 7                                               Recommendations And Comments
                    projects. As the program expands, establish goals, objectives,
                    and performance measurement criteria— including benchmarks,
                    as appropriate— consistent with the Government Performance
                    and Results Act.


             In its response to our draft report, Defense Programs stated that in the
MANAGEMENT   past, integrated management and reporting on RIM activities was not
REACTION     required because the effort was small in relation to the total program
             budget. Management acknowledged, however, that the emerging
             interest in RIM within the Department and the Congress calls for
             increased attention to the Department’s ongoing activities. Defense
             Programs therefore agreed to “… establish a mechanism to collect
             reliable and timely information that will provide for a periodic review of
             RIM efforts at a single point of contact.” However, management’s
             response did not specify what the mechanism would be or when it would
             be implemented. Defense Programs also agreed to adopt an integrated
             management approach under a single point of contact for all of its RIM
             activities should they become part of a Departmentwide national
             initiative (emphasis added).

             Management stated that the RMSEL facility was subject to a multi-year
             process of planning and approval by the Department and Congress.
             Defense Programs acknowledged that a significant amount of work at
             RMSEL was currently being done in support of others. However,
             officials believe that the facility would be a critical asset should the
             Department enter into a national RIM initiative.


             Management’s comments do not fully satisfy the intent of our
             recommendations.
AUDITOR
COMMENTS     Regarding the establishment of management controls (recommendation
             1), Defense Programs should specify what “mechanism” it will use to
             collect reliable and timely information, when the mechanism will be
             implemented, and the nature of the proposed periodic review.

             Further, the Defense Programs position that it will adopt an integrated
             management approach (recommendation 2) only at some future,
             unspecified threshold of activity seems unwise. Departmental operating
             costs for RIM activities exceeded $66 million in Fiscal Year 1998 and
             are expected to increase significantly. Although the $14 million figure
             for Defense Programs is indeed relatively small in relation to the overall
             Defense Progams budget, However, previous reports by the Office of

Page 8                                         Recommendations And Comments
         for Defense Programs is indeed relatively small in relation to the overall
         Defense Programs, previous reports by the Office of Inspector General
         have detailed situations in which emerging programs that were not well
         integrated resulted in unnecessary expenditures, duplicative research,
         inefficiencies, and criticism from Department stakeholders.




Page 9                                      Recommendations And Comments
Appendix 1
SCOPE         The audit was performed between August 1998 and May 1999. Our
              review was limited to the Office of Advanced Design and Production
              Technologies and the Office of Research Testing within Defense
              Programs. The review covered Robotics and Intelligent Machines
              research and development projects and funding for Fiscal Year 1998.
              Site visits were made to the Sandia National Laboratories and the
              Albuquerque Operations Office in Albuquerque, New Mexico.


              To accomplish the objective, we obtained and reviewed applicable
METHODOLOGY
              regulations and Departmental orders pertaining to management controls.
              In addition, discussions were held with Departmental and contractor
              officials who provided information on management controls. We also
              gathered and analyzed pertinent data pertaining to RIM projects.
              Further, we reviewed policies and procedures used by the Offices of
              Technologies and Research to manage RIM projects. Finally, we
              reviewed related reports by the Office of Inspector General.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to the
              extent necessary to satisfy the audit objective. Because our review was
              limited, it would not necessarily have disclosed all internal control
              deficiencies that may have existed. We tested the accuracy and
              reliability of computer-processed data regarding RIM projects and
              funding. As discussed in the report, we concluded that this data was not
              accurate or reliable.

              The Office of Defense Programs waived the exit conference.




Page 10                                                     Scope And Methodology
Appendix 2




                                  ROBOTIC MANUFACTURING SCIENCE
                                   AND ENGINEERING LABORATORY




The Robotic Manufacturing Science and Engineering Laboratory (RMSEL) is a $30,000,000 central facility
for employees working on RIM research. Presently, there are more than 150 researchers working at the
laboratory who are involved in design and development of robots for tasks such as manufacturing,
environmental cleanup, weapons production, and dismantlement of nuclear weapons. Located at Sandia
National Laboratories, the 73,000 square foot building's justification was based on it meeting Departmental
RIM needs that private industry was not supplying or providing. The facility opened in October 1996.




Page 11                                                             Robotic Manufacturing Science And
                                                                               Engineering Laboratory
Appendix 3

           SUMMARY OF RELATED OFFICE OF INSPECTOR GENERAL REPORTS


Prior audits related to research and development and integration in the Department of Energy were:

Audit of the U.S. Department of Energy's Implementation of the Government Performance and Results Act,
DOE/IG-0439, February 1999. The Department's implementation of the Results Act was incomplete in that
some program offices' Fiscal Year 1999 budgets did not clearly integrate the activity-level performance data
with the higher-level strategic planning data.

Audit of the U.S. Department of Energy's Participation in the Partnership for a New Generation of Vehicles
Program, DOE/IG-0422, July 1998. Although research projects being pursued by the Department
contributed to the goals of the Partnership for a New Generation of Vehicles Program, it was unlikely that
some of the technologies would be fully developed in time to meet the 2004 program timeframe.

Audit of the Department of Energy's Management of Research and Development Integration, DOE/IG-
0417, March 1998. The Department did not have a system in place to ensure that research and development
projects were integrated although Congress and others had called for such an approach.

Report on the Coordination of Long-Term Energy Research and Development Planning, DOE/IG-0232,
November 1986. The Department's lack of a unified long-term research and development plan was
discussed.




Page 12                                                                                   Related Reports
Appendix 4



                 OIG ESTIMATES OF DEPARTMENTAL RIM FUNDING


    Robotics Manufacturing Science and Engineering Laboratory      $22,768,586
    Lawrence Livermore National Laboratory                           4,510,000
    Savannah River Technology Center                                 3,715,000
    Los Alamos National Laboratory                                   2,980,000
    Pacific Northwest National Laboratory                            2,741,300
    Oak Ridge National Laboratory                                   22,188,000
    Lawrence Berkeley National Laboratory                            1,857,000
    West Valley Nuclear Services                                     5,800,000

          TOTAL                                                    $66,559,886




Page 13                                                     Departmental Funding Estimates
                                                                               IG Report No. DOE/IG-0449

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer
     friendly and cost effective as possible. Therefore, this report will be available
         electronically through the Internet at the following alternative address:


       U.S. Department of Energy Management and Administration Home Page
                             http://www.hr.doe.gov/ig
                                        or
                              http://www.ma.doe.gov

           Your comments would be appreciated and can be provided on the
                  Customer Response Form attached to the report.
